TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Majority of Individual Tax Returns Were
                   Processed Timely, but Not All Tax Credits
                   Were Processed Correctly During the 2012
                                 Filing Season



                                       September 26, 2012

                              Reference Number: 2012-40-119




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                 HIGHLIGHTS


THE MAJORITY OF INDIVIDUAL TAX                       the Modernized E-File system to create output
RETURNS WERE PROCESSED TIMELY,                       files using the accepted electronically filed tax
BUT NOT ALL TAX CREDITS WERE                         return data format that other IRS systems need
PROCESSED CORRECTLY DURING THE                       to continue processing the tax returns.
2012 FILING SEASON                                   As of April 28, 2012, the IRS had identified tax
                                                     returns with $6.4 billion in fraudulent tax refunds
                                                     and prevented the issuance of $6.1 billion of the
Highlights                                           fraudulent tax refunds. The IRS also identified
                                                     210,473 tax returns filed by prisoners for fraud
Final Report issued on                               screening, a 5.3 percent increase compared to
September 26, 2012                                   last year.
                                                     The IRS assisted approximately 2.3 million
Highlights of Reference Number: 2012-40-119          individuals at its Taxpayer Assistance Centers
to the Internal Revenue Service Commissioner         and received approximately 90.4 million
for the Wage and Investment Division.                attempts from taxpayers calling the various
IMPACT ON TAXPAYERS                                  Customer Account Services function toll-free
                                                     telephone assistance lines.
The filing season, defined as the period from
January 1 through mid-April, is critical for the     The processing of Homebuyer Credit
IRS because it is during this time that most         repayments has improved. However, some
individuals file their income tax returns and        taxpayer repayments continue to be inaccurately
contact the IRS if they have questions about         processed resulting in almost $2.6 million in
specific tax laws or filing procedures. As of        erroneous refunds and more than $290,000 in
April 28, 2012, the IRS received more than           incorrect assessments to taxpayers’ accounts.
133.4 million individual income tax returns and      In addition, more than $14.6 million was not
issued slightly more than 99.1 million tax refunds   properly assessed and more than $650,000 was
totaling approximately $269 billion.                 incorrectly over-assessed to taxpayers’ accounts
                                                     when taxpayers reported a disposition of the
WHY TIGTA DID THE AUDIT                              property.
One of the challenges the IRS confronts each         In addition, 125,684 taxpayers also claimed
year in processing tax returns is the                more than $29.7 million in erroneous
implementation of new tax law changes. Before        Nonbusiness Energy Property Credits, and
the filing season begins, the IRS must identify      109,618 taxpayers claimed more than
new tax law and administrative changes and,          $159 million for the American Opportunity Tax
when possible, revise the various tax forms,         Credit for students who, based on age, are
instructions, and publications. The objective of     unlikely to be pursuing an undergraduate degree
this review was to evaluate whether the IRS          or vocational certification.
timely and accurately processed individual paper
and electronically filed tax returns during the      WHAT TIGTA RECOMMENDED
2012 Filing Season.                                  TIGTA made a number of recommendations
WHAT TIGTA FOUND                                     including recommendations to initiate recovery
                                                     programs for erroneously paid claims and to
The IRS timely processed the majority of             ensure that Homebuyer Credit claims are
individual income tax returns during the             processed correctly.
2012 Filing Season. However, some taxpayers
who electronically filed early in the 2012 Filing    IRS management agreed and implemented
Season experienced delays in receiving their tax     corrective actions for all recommendations that
refunds. The IRS indicated that it had               included changing computer programming,
experienced problems with its filters established    updating processing procedures, and initiating
to identify fraud and with the program used by       recovery procedures for credits that were
                                                     erroneously refunded.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 26, 2012


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Majority of Individual Tax Returns Were
                             Processed Timely, but Not All Tax Credits Were Processed Correctly
                             During the 2012 Filing Season (Audit # 201240010)

 This report presents the results of our review to evaluate whether the Internal Revenue Service
 timely and accurately processed individual paper and electronically filed tax returns during the
 2012 Filing Season. This review is included in our Fiscal Year 2012 Annual Audit Plan and
 addresses the major management challenge of Implementing Major Tax Law Changes.
 Management’s complete response to the draft report is included in Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (770) 617-6434.
                      The Majority of Individual Tax Returns Were Processed Timely,
                           but Not All Tax Credits Were Processed Correctly
                                       During the 2012 Filing Season




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Majority of Individual Income Tax Returns Were
          Timely Processed .......................................................................................... Page 4
          Use of Customer Assistance Tools Continues to Increase............................ Page 9
          Not All Paid Tax Return Preparers Are Complying With
          the Recently Added Earned Income Tax Credit Due
          Diligence Requirement ................................................................................. Page 15
          Processing Homebuyer Credit Repayments Has
          Improved, but Some Taxpayer Repayments Continue
          to Be Inaccurately Processed ........................................................................ Page 16
                    Recommendations 1 and 2: .............................................. Page 20

                    Recommendations 3 through 5:......................................... Page 21

          Taxpayers Received Nonbusiness Energy Property
          Credits in Excess of the Maximum Amount Allowed .................................. Page 21
                    Recommendation 6:........................................................ Page 22

          Individuals Are Claiming Students for the American
          Opportunity Tax Credit Who, Based on Age, Are
          Unlikely to Be Pursuing an Undergraduate Degree
          or Vocational Certification ........................................................................... Page 22
                    Recommendations 7 and 8: .............................................. Page 24

                    Recommendation 9:........................................................ Page 25


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 26
          Appendix II – Major Contributors to This Report ........................................ Page 29
            The Majority of Individual Tax Returns Were Processed Timely,
                 but Not All Tax Credits Were Processed Correctly
                             During the 2012 Filing Season



Appendix III – Report Distribution List ....................................................... Page 30
Appendix IV – Outcome Measures............................................................... Page 31
Appendix V – Prior Treasury Inspector General for Tax
Administration Reports ................................................................................. Page 36
Appendix VI – Glossary of Terms ................................................................ Page 37
Appendix VII – Management’s Response to the Draft Report ..................... Page 39
               The Majority of Individual Tax Returns Were Processed Timely,
                    but Not All Tax Credits Were Processed Correctly
                                During the 2012 Filing Season




                               Abbreviations

AOTC                    American Opportunity Tax Credit
AQC                     Automated Questionable Credit
e-file(d); e-filing     Electronically file(d); electronic filing
EITC                    Earned Income Tax Credit
IRS                     Internal Revenue Service
MeF                     Modernized E-File
TIGTA                   Treasury Inspector General for Tax Administration
                   The Majority of Individual Tax Returns Were Processed Timely,
                        but Not All Tax Credits Were Processed Correctly
                                    During the 2012 Filing Season




                                            Background

The filing season1 is critical for the Internal Revenue Service (IRS) because it is during this time
that most individuals file their income tax returns and contact the IRS if they have questions
about specific tax laws or filing procedures. As of April 28, 2012, the IRS received more than
133.4 million individual income tax returns.
One of the challenges the IRS confronts each year in
processing tax returns is the implementation of new tax        The IRS received more than
                                                             133.4 million individual income
law changes. Before the filing season begins, the IRS        tax returns as of April 28, 2012.
must identify new tax law and administrative changes
and, when possible, revise the various tax forms,
instructions, and publications. It must also reprogram its computer systems to ensure tax returns
are accurately processed. Problems with tax return processing could delay tax refunds, affect the
accuracy of tax accounts, and result in the generation of incorrect notices.

Tax law provisions affecting the 2012 Filing Season
       The Worker, Homeownership, and Business Assistance Act of 20092 – Enacted on
        November 6, 2009, this Act modified the First-Time Homebuyer Credit3 to allow the
        credit for homes purchased through May 1, 2011, and for closings through July 1, 2011,
        only to members of the uniformed services, the Foreign Service, and the intelligence
        community.
       The Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of
        2010 4 – Enacted on December 22, 2010, this Act extended the Nonbusiness Energy
        Property Credit5 one year through December 31, 2011, and also reduced the aggregate
        credit for purchases after December 31, 2005, down to $500 from $1,500. The
        Nonbusiness Energy Property Credit allows a credit to individuals who purchase certain
        exterior windows (including skylights), exterior doors, and metal or asphalt roofs for their
        personal residence. The Joint Committee on Taxation estimates that the extension of this
        provision will cost $477 million in Fiscal Year 2012.




1
  See Appendix VI for a glossary of terms.
2
  Pub. L. No. 111-92, 123 Stat. 2984 (2009).
3
  Internal Revenue Code § 36(h)(3).
4
  Pub. L. No. 111-312, 124 Stat. 3296 (2010).
5
  Internal Revenue Code § 25C.
                                                                                              Page 1
                   The Majority of Individual Tax Returns Were Processed Timely,
                        but Not All Tax Credits Were Processed Correctly
                                    During the 2012 Filing Season



       The United States-Korea Free Trade Agreement Implementation Act 6 – Enacted on
        October 21, 2011, this Act amended Internal Revenue Code Section (§) 6695(g) to
        increase the penalty from $100 to $500 on paid tax return preparers who fail to comply
        with Earned Income Tax Credit (EITC) due diligence requirements.
       The Emergency Economic Stabilization Act of 2008 7 – Enacted on October 3, 2008, this
        Act established cost basis-related reporting requirements for individual investors and
        brokers. Brokers and other intermediaries must report their clients’ adjusted cost basis on
        Form 1099-B, Proceeds From Broker and Barter Exchange Transactions. Investors
        must report the correct cost basis on the Schedule D, Capital Gains and Losses, and
        Form 8949, Sales and Other Dispositions of Capital Assets. There is a three-year
        phase-in (beginning January 1, 2011) for full implementation of the legislation.

IRS-initiated changes affecting the 2012 Filing Season
       The Department of the Treasury and the IRS issued final regulations8 on
        December 20, 2011, in response to concerns over improper EITC payments on tax returns
        completed by paid tax return preparers. The regulations require tax return preparers to
        submit a Form 8867, Paid Preparer’s Earned Income Credit Checklist, with each Tax
        Year 2011 tax return claiming the EITC.
       In response to several Treasury Inspector General for Tax Administration (TIGTA)
        reviews9 of the IRS’s process for identifying erroneous claims for Vehicle Credits, the
        IRS is now requesting that taxpayers supply the 17-digit Vehicle Identification Number
        on the following forms:
        o Form 8834, Qualified Plug-in Electric and Electric Vehicle Credit.
        o Form 8910, Alternative Motor Vehicle Credit.
        o Form 8936, Qualified Plug-in Electric Drive Motor Vehicle Credit.
       The IRS added a new line 59b, Homebuyer Credit Repayment, to the Form 1040, U.S.
        Individual Income Tax Return, to facilitate taxpayers reporting of any required
        Homebuyer Credit installment payments.10 This alleviates the need for taxpayers to
        prepare a Form 5405, First-Time Homebuyer Credit and Repayment of the Credit, to
        report their repayments.

6
  Pub. L. No. 112-041, 125 Stat. 428 (2011).
7
  Pub. L. No. 110-343, 122 Stat. 3765 (2008).
8
  Treas. Reg. § 1.6695–2.
9
  See Appendix V, report Ref. No. 2011-41-011, report Ref. No. 2010-41-128, and report Ref. No. 2011-40-128.
10
   The Housing and Economic Recovery Act of 2008, enacted on July 30, 2008, requires individuals who purchased
a home between April 9 and December 31, 2008, and claimed a Homebuyer Credit to begin repaying the credit on
their Tax Year 2010 tax return. The credit is intended to be repaid over 15 years in equal annual installments each
year.
                                                                                                            Page 2
                   The Majority of Individual Tax Returns Were Processed Timely,
                        but Not All Tax Credits Were Processed Correctly
                                    During the 2012 Filing Season



The IRS processed individual income tax returns at five Wage and Investment Division
Submission Processing sites during the 2012 Filing Season: Fresno, California;
Andover, Massachusetts; Kansas City, Missouri; Philadelphia, Pennsylvania; and
Austin, Texas.11
The 2012 Filing Season results are being presented as of April 21, April 28, or May 2, 2012,
unless specified otherwise.12 This review was performed at the Wage and Investment
Division Headquarters in Atlanta, Georgia; the Submission Processing function offices in
Cincinnati, Ohio; the Modernization and Information Technology Services organization
Headquarters in Lanham, Maryland; and the Submission Processing Site in Austin, Texas, during
the period January through June 2012. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




11
  Andover, Massachusetts, and Philadelphia, Pennsylvania, process electronically filed tax returns only.
12
  Results are provided as of April 21, April 28, or May 2, 2012, depending on the date the IRS reported the
respective data.
                                                                                                              Page 3
                 The Majority of Individual Tax Returns Were Processed Timely,
                      but Not All Tax Credits Were Processed Correctly
                                  During the 2012 Filing Season




                                 Results of Review

The Majority of Individual Income Tax Returns Were Timely Processed
The IRS timely processed the majority of individual income tax returns during the 2012 Filing
Season and issued associated tax refunds within 45 calendar days of the April 17, 2012, tax
return due date. However, some taxpayers who filed their tax returns early in the 2012 Filing
Season experienced delays in receiving their tax refunds.
The IRS indicated that it had experienced problems with its filters established to detect fraud and
with the program used by the Modernized E-File (MeF) system to create output files using the
accepted electronically filed (e-filed) tax return data format that other IRS systems need to
continue to process tax returns. Fraud filters initially identified taxpayers as having indicators of
possible fraud, which resulted in their tax returns being held for additional screening. However,
the IRS determined that these filters were incorrectly identifying some taxpayers. Once the IRS
made necessary adjustments to these filters, the problem was corrected.
The IRS explained that MeF system
programming problems resulted in the creation
of incomplete and/or duplicate output files using    MeF system programming problems
the accepted e-file data. This resulted in delays      resulted in tax return processing
in sending the output files to downstream           delays for 7.8 million tax returns early
processing systems. According to the IRS, the                 in the filing season.
programming problems delayed the processing
of approximately 7.8 million tax returns. The majority of these tax returns were processed
through the MeF system from February 2 through February 11, 2012. The IRS indicated that all
of the delayed tax returns were sent to downstream systems for processing by February 18, 2012.
In addition, the MeF system programming problems have resulted in accepted tax return
information not always being timely available for use in IRS customer service operations,
including “Where’s My Refund.” The IRS stated that these problems were addressed and
processes were established to account for all tax returns accepted via the MeF system during the
time period the processing problem existed. The IRS noted that it was developing an end-to-end
balancing process to track MeF system tax returns from acceptance to the posting of the tax
return on the Master File.
As of April 28, 2012, the IRS received more than 133.4 million individual income tax returns.
Of those, about 111.3 million (83.4 percent) were e-filed and about 22.1 million (16.6 percent)
were filed on paper (a decrease of 14.1 percent from this time last year). In addition, the IRS


                                                                                              Page 4
                   The Majority of Individual Tax Returns Were Processed Timely,
                        but Not All Tax Credits Were Processed Correctly
                                    During the 2012 Filing Season



issued slightly more than 99.1 million tax refunds totaling approximately $269 billion. Figure 1
presents a summary of tax return filing statistics as of April 28, 2012.
          Figure 1: Comparative Filing Season Statistics as of April 28, 2012

                                                               2011              2012        %
Cumulative Filing Season Data
                                                              Actual            Actual     Change
Individual Income Tax Returns
Total Returns Received (in thousands)                          130,706           133,460    2.1%
    Paper Returns Received (in thousands)                       25,756            22,135   -14.1%
    E-Filed Returns Received (in thousands)                    104,951           111,325    6.1%
      Practitioner Prepared                                     67,082            69,846    4.1%
      Home Computer                                             37,854            41,479    9.6%
      Free File (also included in Home Computer total)           3,054             3,013    -1.3%
      Fillable Forms (also included in Home Computer total)        410               454   10.7%
Individual Income Tax Refunds
 Total Number Issued (in thousands)                             98,213            99,104    0.9%
 Total $ (in millions)                                        $277,149         $269,141     -2.9%
 Average $                                                      $2,822            $2,716    -3.8%
 Total Number of Direct Deposits (in thousands)                 74,653            78,007    4.5%
 Total Direct Deposit $ (in millions)                         $227,211         $227,986    0.34%
Source: IRS 2012 Weekly Filing Season reports. Totals and percentages shown are rounded.

The e-filing rate is higher and use of home computers is increasing; however, use
of the Free File Program is decreasing
Since the 1990 Filing Season, taxpayers have e-filed nearly 1 billion individual income tax
returns. As of April 28, 2012, e-file volumes are 6.1 percent higher than the volumes for the
same period in 2011. The IRS anticipates that e-filing of tax returns will continue to grow.
In addition, for the fourth year, the IRS and its partners are offering Free File Fillable Tax Forms,
which opens up the Free File Program to nearly everyone, with no income limitations. More
individuals are taking advantage of this filing option. Use of Fillable Forms has increased to
approximately 454,000 tax returns, an increase of 10.7 percent from 2011. However,
participation in the Free File Program has decreased by 1.3 percent when compared to the same
period in 2011. The traditional IRS Free File Program is a free Federal online tax preparation
and e-filing program for eligible taxpayers developed through a partnership between the IRS and

                                                                                              Page 5
                   The Majority of Individual Tax Returns Were Processed Timely,
                        but Not All Tax Credits Were Processed Correctly
                                    During the 2012 Filing Season



the Free File Alliance, LLC (a group of private-sector tax preparation companies). The program
enables eligible taxpayers to use commercial tax software for free, accessible only through the
IRS’s website, IRS.gov.

More erroneous tax refunds are being detected and stopped
Unscrupulous individuals continue to submit tax returns with false income documents to the IRS
for the sole purpose of receiving a fraudulent tax refund. As of April 28, 2012, the IRS had
identified tax returns with $6.4 billion claimed in fraudulent tax refunds and prevented the
issuance of $6.1 billion (95.3 percent) of the fraudulent tax refunds. This represents a
39.1 percent increase in the number of fraudulent tax refund attempts identified as of the same
period last processing year.
Figure 2 shows the number of fraudulent tax returns identified by the IRS for Processing
Years 2009 through 2011, as well as the tax refund amounts that were claimed and stopped.
              Figure 2: Fraudulent Tax Returns and Tax Refunds Identified
                  and Stopped in Processing Years 2009 Through 2011

                     Number of                                         Amount of
                     Fraudulent               Number of                Fraudulent             Amount of
     Processing    Refund Returns         Fraudulent Refund              Refunds              Fraudulent
        Year          Identified           Returns Stopped              Identified         Refunds Stopped
       2009              457,369                369,257              $2,988,945,590           $2,517,094,116
       2010              971,511                881,303              $7,300,996,194           $6,931,931,314
       2011            2,176,657              1,756,242             $16,186,395,218         $14,353,795,007
 Source: IRS fraudulent return statistics for Processing Years 2009 through 2011.

Individual tax returns are sent through the IRS’s Electronic Fraud Detection System and receive
a data-mining score based on the characteristics of the tax return and other data. For those tax
returns meeting a certain score, the tax return is sent to an IRS tax examiner to screen the tax
return for fraud potential. If a tax return is selected for further verification, the tax refund is held
until employers or third parties are contacted to verify wage information on the tax return. If the
verification process is not completed within a certain time period, the tax refund is automatically
released. In general, if the employee concludes that a tax return contains false information,
e.g., false or inflated wages, the tax return is either resolved in the Accounts Management
function or referred to one of the Examination functions13 for resolution. Tax returns with
refundable credits, such as the EITC, and tax returns for which the tax refunds were issued must

13
  According to the referral procedures, fraudulent refund returns are forwarded to either the Wage and Investment
Division Examination function or the Small Business/Self-Employed Division Examination function. The majority
of fraudulent refund returns are forwarded to the Examination function in the Wage and Investment Division. For
purposes of this report, we use “Examination functions” unless we refer to a specific Division.
                                                                                                          Page 6
                     The Majority of Individual Tax Returns Were Processed Timely,
                          but Not All Tax Credits Were Processed Correctly
                                      During the 2012 Filing Season



be sent to the Wage and Investment Division’s Examination function because the law requires
the IRS to follow deficiency procedures before making an assessment in these cases.
Beginning in the 2012 Filing Season, the IRS implemented new fraud filters specifically
designed to detect identity theft
Tax returns identified via the new identity theft filters are being held during processing until the
IRS can verify the taxpayer’s identity. Once a taxpayer’s identity has been confirmed, the tax
return is released for processing and the tax refund is issued. The IRS removes those tax returns
from processing for which the individual’s identity could not be confirmed, thus preventing the
issuance of a fraudulent tax refund. As of April 19, 2012, the IRS had stopped the issuance of
approximately $1.3 billion in potentially fraudulent tax refunds as a result of the new identity
theft filters.
The screening of prisoner tax returns also continues to increase
In a prior TIGTA review assessing the IRS fraudulent tax return screening process,14 we reported
that the majority of tax returns identified as being filed by prisoners are not sent to a tax
examiner for screening to assess the potential that the tax return is fraudulent. As of
April 28, 2012, the IRS had identified 210,473 tax returns filed by prisoners for screening. This
represents a 5.3 percent increase in the number of prisoner tax returns identified as of the same
period last processing year. Figure 3 shows a comparison of the number of tax returns filed by
prisoners that were sent to a tax examiner for screening as of the last week in April for
Processing Years 2010, 2011, and 2012.
                            Figure 3: Prisoner Tax Returns Identified
                      for Screening in Processing Years 2010 Through 2012
                                   (as of the last week of April)

                                           Number of Prisoner
                      Processing          Tax Returns Identified             Increase From
                         Year                 for Screening                    Prior Year
                          2010                        56,101
                          2011                      199,854                        256%
                          2012                      210,473                        5.3%
                   Source: IRS fraudulent return statistics for Processing Years 2010 through 2012
                   as of the last week in April.




14
     See Appendix V, report Ref. No. 2010-40-129, p. 9.
                                                                                                     Page 7
                     The Majority of Individual Tax Returns Were Processed Timely,
                          but Not All Tax Credits Were Processed Correctly
                                      During the 2012 Filing Season



Individuals have increased the use of the savings bond and split tax refund
options
Beginning with the 2010 Filing Season, individuals have the ability to use their tax refunds to
purchase up to $5,000 in U.S. Series I Savings Bonds by requesting the bonds on their tax return.
Individuals may request any portion of their tax refund that is an exact multiple of $50 be used to
purchase up to three savings bonds for themselves or other persons by simply filling out the
Form 8888, Allocation of Refund (Including Savings Bond Purchases). Through May 2, 2012, a
total of 42,212 individuals requested to convert tax refunds totaling more than $22 million into
savings bonds. This represents almost a 40 percent increase over the same period last filing
season.
In addition, individuals can still elect to have their Federal income tax refunds split and
electronically deposited in up to three accounts, e.g., checking, savings, or Individual Retirement
Arrangement, and may have up to three different U.S. financial institutions, including banks,
brokerage firms, or credit unions. Form 8888 must also be prepared for this option. As of
May 2, 2012, a total of 868,333 individuals chose to split tax refunds totaling more than
$3.7 billion between two or three different accounts. The number of individuals using the split
tax refund option increased more than 15 percent compared to the same period last filing season.

The IRS continues to recover erroneous Qualified Motor Vehicle deductions
In April 2011, we reported that the IRS did not effectively identify 7,756 potentially erroneous
Qualified Motor Vehicle deductions totaling more than $152 million.15 IRS processes did not
identify excessive claims, did not identify ineligible taxpayers, and did not ensure that tax
refunds were stopped where the IRS identified the deduction as excessive. In response to our
report, IRS management agreed to review erroneous Qualified Motor Vehicle deductions
identified during our review. In our 2011 Filing Season review, we determined that the IRS had
assessed $3 million in erroneous Qualified Motor Vehicle deductions.
As of April 19, 2012, the IRS had assessed an additional 1,563 taxpayers for erroneous Qualified
Motor Vehicle deductions of almost $3.6 million. Figure 4 shows a breakdown of erroneous
Qualified Motor Vehicle deductions assessed as of April 19, 2012.




15
     See Appendix V, report Ref. No. 2011-41-037.
                                                                                            Page 8
                   The Majority of Individual Tax Returns Were Processed Timely,
                        but Not All Tax Credits Were Processed Correctly
                                    During the 2012 Filing Season



                 Figure 4: Erroneous Qualified Motor Vehicle Deductions
                                  Assessed by the IRS

                                                Number of                  Dollars
                  Time Period                   Taxpayers                  Assessed

                  As of May 28, 2011                     2,034                 $3.0 million
                  Between May 29, 2011,                                        $3.6 million
                                                         1,563
                  and April 19, 2012
                  Total                                  3,597                 $6.6 million
                 Source: TIGTA analysis of IRS Master File as of April 19, 2012.

As of April 19, 2012, the IRS has assessed more than $6.6 million in erroneous Qualified Motor
Vehicle deductions claimed on 3,597 (46 percent) of the 7,756 tax returns we identified in our
April 2011 report.

Use of Customer Assistance Tools Continues to Increase
Taxpayers have several options from which to choose when they need assistance from the IRS,
including telephone assistance through the toll-free telephone lines, face-to-face assistance at the
Taxpayer Assistance Centers and Volunteer Program sites, and self-assistance through IRS.gov.

Face-to-face assistance at the Taxpayer Assistance Centers
The Taxpayer Assistance Centers are walk-in sites where taxpayers can obtain answers to both
account and tax law questions, as well as receive assistance in preparing their tax returns. The
IRS assisted approximately 2.3 million taxpayers during the 2012 Filing Season and plans to
assist 6.1 million taxpayers in Fiscal Year 2012. During Fiscal Year 2011, the Taxpayer
Assistance Centers served almost 6.4 million taxpayers, which included 2.8 million taxpayers
served during the 2011 Filing Season. According to the IRS, as of April 21, 2012, 74 percent of
the taxpayers who waited to speak to assistors at the 398 Taxpayer Assistance Centers that track
wait time waited fewer than 30 minutes.16
Figure 5 shows the number of contacts by product line at the Taxpayer Assistance Centers for
Fiscal Years 2009 through 2012.




16
  Tracking begins when the taxpayer is provided a ticket inside the Taxpayer Assistance Center and does not
include the time a taxpayer may wait outside a Taxpayer Assistance Center.
                                                                                                          Page 9
                    The Majority of Individual Tax Returns Were Processed Timely,
                         but Not All Tax Credits Were Processed Correctly
                                     During the 2012 Filing Season



                   Figure 5: Contacts for Fiscal Years 2009 Through 2012
                                        (in millions)

                                                                        Fiscal Year
          Contacts/Product Lines
                                                                                                2012
                                                   2009            2010          2011        Projections
          Tax Accounts Contacts                     3.2              3.5          3.7            3.6
          Forms Contacts                            0.8              0.7          0.6            0.6
          Other Contacts17                          1.5              1.5          1.5            1.7
          Tax Law Contacts                          0.3              0.3          0.3            0.2
          Tax Returns Prepared18                    0.4              0.4          0.3

          Totals                                    6.2              6.4          6.4            6.1
         Source: IRS management information reports.

In Fiscal Year 2007, the IRS implemented a standardized quality measurement system to
measure the quality of taxpayer service at its Taxpayer Assistance Centers. Fiscal Year 2007
was the baseline year. As shown in Figure 6, the accuracy rates are 75 percent or above.
              Figure 6: Accuracy Rates for Fiscal Years 2009 Through 2012
                          100%

                           95%                      91%             91%          91%
                           90%        87%
                           85%                                      82%          83%
                                                    81%
                           80%
                                      75%
                           75%

                           70%

                           65%
                                   Fiscal Year   Fiscal Year    Fiscal Year   Fiscal Year
                                      2009          2010           2011          2012*
                                                  Tax Law      Tax Accounts


                         Source: IRS management information reports. *=Projected.



17
   Other Contacts includes Form 2063, U.S. Departing Alien Income Tax Statement; date-stamping tax returns
brought in by taxpayers; screening taxpayers for eligibility of service; scheduling return preparation appointments;
and helping taxpayers with general information such as addresses and directions to other IRS offices or other
Federal Government agencies.
18
   In Fiscal Year 2012, Tax Returns Prepared is included in Other Contacts.
                                                                                                            Page 10
                    The Majority of Individual Tax Returns Were Processed Timely,
                         but Not All Tax Credits Were Processed Correctly
                                     During the 2012 Filing Season



As a result of budget constraints, tax return preparation was provided only on a limited number
of days per week and only on a first come, first served basis. Appointments were not available.
The IRS hoped this would allow it to still provide tax return preparation to the many taxpayers
who need it, but not to the detriment of other taxpayers with tax law and account issues. The
IRS directed taxpayers and employees to alternative services for tax return preparation, such as
Volunteer Income Tax Assistance, Free File, and Fillable Forms.
The IRS also did not provide extended hours for the Taxpayer Assistance Centers during the
2012 Filing Season. It had planned to extend hours of operation in approximately 47 Taxpayer
Assistance Centers—before 8:30 a.m. and after 4:30 p.m. during the week and on some
Saturdays. However, with budget cuts and continuing staffing shortages, Taxpayer Assistance
Center hours were not extended.

Toll-free telephone assistance
Despite other options available to taxpayers, many taxpayers choose to use the telephone to
contact the IRS. More taxpayers are calling the IRS’s toll-free telephone lines every year.
During the 2012 Filing Season, the IRS received approximately 90.4 million attempts from
taxpayers calling the various Customer Account Services function toll-free telephone assistance
lines19 seeking help in understanding the tax law and meeting their tax obligations.20 IRS
assistors answered 13.3 million calls and achieved a 68.3 percent Level of Service and a
946 second (15.8 minutes) Average Speed of Answer. The IRS answered almost 41 million calls
through automation.
A reduction in funding for toll-free telephone and correspondence services resulted in a Level of
Service goal for Fiscal Year 2012 of 61 percent, compared to 70 percent the IRS achieved in
Fiscal Year 2011. The last year the IRS provided a Level of Service more than 80 percent was
Fiscal Year 2007. This decrease translates to longer customer wait times, increased customer
abandons, and an increased number of customers redialing the IRS toll-free telephone lines for
service.
In August 2011, the TIGTA reported that increased call demand and limited resources continue
to adversely affect the toll-free telephone level of service.21 In the 2011 Filing Season, the IRS
received 48 percent more calls than during the 2007 Filing Season. Taxpayers waited on average
10 minutes to speak to an assistor, a 137 percent increase since the 2007 Filing Season.
Nevertheless, the IRS reduced the operating hours for its main toll-free telephone help line,
(800) 829-1040, from 7:00 a.m. to 10:00 p.m. local time to 7:00 a.m. to 7:00 p.m. local time.


19
   The IRS refers to the suite of 28 telephone lines to which taxpayers can make calls as “Customer Account
Services Toll-Free.”
20
   Toll-free telephone assistance data presented in this report were taken from available IRS reports through the
week ending April 21, 2012.
21
   See Appendix V, report Ref. No. 2011-40-087.
                                                                                                             Page 11
                  The Majority of Individual Tax Returns Were Processed Timely,
                       but Not All Tax Credits Were Processed Correctly
                                   During the 2012 Filing Season



Over the same period (from the 2007 Filing Season to the 2011 Filing Season), the IRS’s ability
to process taxpayer correspondence in a timely manner also declined. Assistors who answer the
toll-free telephone lines also handle taxpayer correspondence (including processing amended
returns and identity theft cases). During the filing season, when call demand is usually at its
highest, more resources are shifted to the telephones to answer calls, and correspondence and
adjustment inventory processing is placed on hold until call demand subsides. As call volumes
have increased and assistors have been moved to answer telephone calls, paper correspondence
inventories have substantially increased. The correspondence inventory rose from approximately
480,000 at the end of Fiscal Year 2007 to more than 628,000 at the end of Fiscal Year 2010.22
As of March 3, 2012, correspondence inventory was 816,905.

Tax preparation assistance at Volunteer Program sites
The Volunteer Program23 plays an increasingly important role in the IRS’s efforts to improve
taxpayer service and facilitate participation in the tax system. It provides no-cost Federal tax
return preparation and e-filing to underserved taxpayer segments, including low-income, elderly,
disabled, and limited-English-proficient taxpayers. These taxpayers are frequently involved in
complex family situations that make it difficult to correctly understand and apply tax law.
We visited 39 Volunteer Income Tax Assistance and Tax Counseling for the Elderly sites to
determine if taxpayers receive quality service, including accurate preparation of their individual
income tax returns. We developed scenarios designed to test quality controls and training the
volunteers received in preparation for the 2012 Filing Season.
For the 2012 Filing Season, we had 39 tax returns prepared with a 49 percent accuracy rate,
which is higher than the 39 percent accuracy rate we reported for the 2011 Filing Season. See
our report on the quality of income tax preparation at Volunteer Program sites for the 2012 Filing
Season.24
Figure 7 presents comparisons of Volunteer Program activities for the 2009 through 2012 Filing
Seasons.




22
   Fiscal Year 2010 correspondence inventory is reported through the week ending September 25, 2010.
23
   The Volunteer Program is comprised of the Volunteer Income Tax Assistance Program, including the Volunteer
Income Tax Assistance Grant Program, and the Tax Counseling for the Elderly Program.
24
   See Appendix V, report Ref. No. 2012-40-088.
                                                                                                      Page 12
                 The Majority of Individual Tax Returns Were Processed Timely,
                      but Not All Tax Credits Were Processed Correctly
                                  During the 2012 Filing Season



              Figure 7: Year-to-Date Comparisons of Volunteer Program
                 Activities for the 2009 Through 2012 Filing Seasons

                                        2009 Actual    2010 Actual    2011 Actual    2012 Actual

       Volunteer Return Preparation       2,873,235       2,898,756     2,998,202      3,133,251
       Volunteer E-Filing                     95.4%           96.3%        97.0%          97.7%
      Source: IRS 2009 through 2012 Filing Seasons Weekly Reports.

Self-assistance through IRS.gov and social media
                                  The IRS is committed to helping taxpayers obtain the
                                  information they need to help them comply with the tax law.
                                  The IRS is offering more self-assistance options that taxpayers
                                  can access 24 hours a day, seven days a week.
Foremost is the IRS’s public Internet site, IRS.gov. As of April 21, 2012, the IRS had reported a
20.4 percent increase in the number of visits to IRS.gov over the same period in the prior filing
season. It had also reported a 71.4 percent increase in the number of taxpayers obtaining their
refund information online via the “Where’s My Refund” option found on IRS.gov. Figure 8
shows the year-to-date comparisons of various IRS.gov activity levels for the 2009 through 2012
Filing Seasons. The significant increase in the use of “Where’s My Refund” in the 2012 Filing
Season may be due to the problems with IRS filters and the MeF system that caused delays early
in the filing season.
           Figure 8: Year-to-Date Comparisons of IRS.gov Activity Levels
                     for the 2009 Through 2012 Filing Seasons

                                2009 Actual         2010 Actual       2011 Actual     2012 Actual

     IRS.gov Visits               185,812,939         182,827,614     198,745,670     239,283,037

     “Where’s My Refund?”           45,319,260         52,837,745       63,545,026    108,896,851

    Source: IRS 2009 through 2012 Filing Seasons Weekly reports.

The IRS also uses social media platforms and tools to share the latest information on tax
changes, initiatives, products, and services. The IRS uses five different types of social media
outlets and one mobile application, IRS2Go:
   1. IRS2Go. “IRS2Go” is a smartphone application that allows taxpayers to check the status
      of their tax refund and obtain helpful tax information
      on certain mobile devices. The IRS first offered its
      “IRS2Go” app in January 2011 and in Calendar

                                                                                               Page 13
            The Majority of Individual Tax Returns Were Processed Timely,
                 but Not All Tax Credits Were Processed Correctly
                             During the 2012 Filing Season



   Year 2011 had more than 350,000 downloads. This year, IRS2Go includes six tools.
      Get Your Refund Status. Taxpayers can check the status of their Federal income
       tax refund.
      Get Tax Updates. Taxpayers can use IRS2Go to subscribe to filing season tax
       updates by entering their e-mail address to automatically get daily tax tips issued
       daily during the tax filing season and periodically during the rest of the year.
      Follow The IRS. Taxpayers can use IRS2Go to sign up to follow the IRS Twitter
       news feed, @IRSnews.
      Watch The IRS. IRS2Go delivers video from the IRS YouTube channel to the
       mobile device.
      Get The Latest News. IRS news is available via IRS2Go as soon as it is released to
       the public.
      Get My Tax Record. Taxpayers can request their tax return or account transcript
       using their mobile device.
2. YouTube. The IRS publishes informational videos in English, multilingual, and
   American Sign Language on various tax administration topics beneficial to taxpayers.
3. Twitter. IRS tweets include tax-related announcements, news for tax professionals, and
   updates for job seekers.
4. Podcasts. The IRS creates audio files for use in podcasts. These short audio recordings
   provide useful information on one tax-related topic. These files are also available as
   podcasts on iTunes and through the Multimedia Center on IRS.gov as downloadable
   audio files (along with their transcripts).
5. Widgets. Widgets are tools that can be placed on websites, blogs, or social media
   networks to direct others to IRS.gov for information. The IRS has developed a variety of
   widgets that feature the latest tax initiatives and programs.
6. Really Simple Syndication. Really Simple Syndication is a way to get the news
   whenever it is updated through a family of web feed formats used to publish frequently
   updated works. Really Simple Syndication allows taxpayers and practitioners a way to
   gather a wide variety of content in one place on their computers, even if they are not on
   IRS.gov.




                                                                                       Page 14
                     The Majority of Individual Tax Returns Were Processed Timely,
                          but Not All Tax Credits Were Processed Correctly
                                      During the 2012 Filing Season



Not All Paid Tax Return Preparers Are Complying With the Recently
Added Earned Income Tax Credit Due Diligence Requirement
The IRS implemented a new tax return preparer due diligence requirement for the 2012 Filing
Season to improve the accuracy of EITC claims.25 Beginning in January 2012, paid tax return
preparers are required to attach Form 8867 to each tax return they prepare that claims an EITC.
However, despite extensive efforts on the part of the IRS to communicate the new EITC due
diligence requirement, not all paid tax return preparers are attaching the Form 8867 to their
clients’ EITC claims. The IRS reported that as of May 3, 2012, it processed 12.9 million tax
returns with EITC claims totaling $38.7 billion that were prepared by paid tax return preparers.
Almost 534,000 (4 percent) tax returns with EITC claims totaling more than $1.5 billion were
filed without the required Form 8867.
Although as many as one in five eligible taxpayers fail to claim the EITC, some of those who
claim it either compute it incorrectly or are ineligible. In Calendar Year 2011, more than
26 million people received nearly $59 billion in EITCs. Tax professionals prepared close to
66 percent of these claims. The Department of the Treasury estimates that between $14 and
$17 billion were erroneous EITC claims. The due diligence requirements, enacted by Congress
more than a decade ago, were designed to reduce errors on tax returns claiming the EITC.
The IRS created Form 8867 to help tax return preparers
meet the requirement of obtaining eligibility information         The IRS created Form 8867 to help
from their clients. Prior to January 2012, tax return                tax return preparers meet the
                                                                  requirement of obtaining eligibility
preparers were required to keep a Form 8867 in their
                                                                     information from their clients.
records for each EITC claim they filed. The new
requirement to attach the Form 8867 to the tax return is
part of the IRS initiative to ensure that the credit is afforded to taxpayers who qualify. The
regulations also reflect recent congressional action to increase the penalty for noncompliance
with the due diligence requirements from $100 to $500 per occurrence.
The IRS took immediate steps to communicate both the requirement to attach the Form 8867 to
EITC claims as well as the increased penalty for noncompliance with the due diligence
requirements. In addition, the IRS developed a process to identify tax return preparers who
failed to attach the required Form 8867 to filed EITC claims.
During the 2012 Filing Season, the IRS assigned an indicator to taxpayers’ accounts when the
tax return preparer did not attach a Form 8867 to a Tax Year 2011 return claiming the EITC.
However, the IRS did not assess the EITC due diligence penalty on noncompliant tax return
preparers.



25
     Treas. Reg. § 1.6695–2.
                                                                                               Page 15
                   The Majority of Individual Tax Returns Were Processed Timely,
                        but Not All Tax Credits Were Processed Correctly
                                    During the 2012 Filing Season



IRS management indicated that the new requirement did not become effective until
December 20, 2011, and although the IRS had taken immediate steps to communicate the
requirement to the preparer community, it is possible the message was not fully disseminated
before the filing season began. Management stated that they plan to send notices to those tax
return preparers who did not comply with the requirement to attach the Form 8867 to remind
them of the requirement. The notices will also address penalty consequences associated with
noncompliance. The IRS plans to assess penalties for noncompliance for Tax Year 2012 returns.

Processing Homebuyer Credit Repayments Has Improved, but Some
Taxpayer Repayments Continue to Be Inaccurately Processed
The IRS has developed adequate controls to prevent the Homebuyer Credit from being allowed
for purchases with ineligible purchase dates.26 In addition, the IRS continues to develop
processes and procedures to assist individuals with the Homebuyer Credit repayment
requirements. To assist these individuals, the IRS developed an online web tool that enables
individuals to check the amount of their repayment obligation. However, the IRS is not
accurately processing Homebuyer Credit repayments and dispositions. The IRS incorrectly
processed:
        Homebuyer Credit installment payments processed through May 2, 2012, resulting in the
         issuance of almost $2.6 million in erroneous tax refunds and more than $290,000 in
         incorrect assessments to taxpayers’ tax accounts for Tax Year 2011.
        Taxpayers’ dispositions of property used to claim the Homebuyer Credit processed
         through December 31, 2011, resulting in more than $14.6 million not being properly
         assessed to taxpayers’ tax accounts, and more than $650,000 incorrectly over-assessed to
         taxpayers’ tax accounts.
Individuals who claimed the Homebuyer Credit for a home purchased between April 9 and
December 31, 2008, are required to repay the credit in annual installments beginning with their
Tax Year 2010 return. In addition, taxpayers who received the Homebuyer Credit must repay
the credit, less any installment payments made, if they dispose of the home or if the home ceases
to be their primary residence.27
Figure 9 shows the number of Homebuyer Credit claims, installments, and dispositions the IRS
processed as of May 2, 2012.


26
   Only members of the uniformed services, the Foreign Service, or the intelligence community qualify to claim the
Homebuyer Credit in Tax Year 2011. The credit is also limited to homes purchased prior to May 1, 2011, and for
home purchases contracted prior to May 1, 2011, which are completed before July 1, 2011.
27
   For purposes of the credit, a home is disposed if the taxpayer sold the home or the home was foreclosed upon,
converted the home for rental or business use, or the home was destroyed or condemned. A home is also considered
                                                                                      A.2.1




to be disposed when ownership of the home is transferred as part of a divorce settlement.
                                                                                                        Page 16
                     The Majority of Individual Tax Returns Were Processed Timely,
                          but Not All Tax Credits Were Processed Correctly
                                      During the 2012 Filing Season



                 Figure 9: Homebuyer Credits, Installments, and Dispositions
                                     as of May 2, 2012

                                 Tax Year 2011 First-Time Homebuyer Credits
                                       Processed Through May 2, 2012

                                                                            Dollar Amount of
                                     Number of         Number of            Homebuyer Credit
             Category               Tax Returns        Individuals        Reported by Taxpayers

             New Claims                   9,993              N/A                  $70,736,141

             Installments              745,671             1,048,147            $316,309,424
             Dispositions                37,244              46,708               $71,062,216
            Source: TIGTA analysis of the IRS’s Individual Return Transaction File as of May 2, 2012.

Processing Homebuyer Credit installment payments
As of May 2, 2012, the IRS had erroneously processed Homebuyer Credit installment payments
made by 7,369 taxpayers. As a result, the IRS erroneously:
          Refunded almost $2.6 million in Homebuyer Credit installment payments to
           6,288 taxpayers who correctly reported the required repayment amounts on their tax
           returns.
          Assessed additional Homebuyer Credit installment payments totaling more than $290,000
           on 1,081 taxpayers’ tax accounts who correctly reported the required repayment amounts
           on their tax returns.
In September 2011,28 we reported that programming errors caused inaccurate processing of
Homebuyer Credit repayments. As a result, the IRS developed a process to identify taxpayers
who do not report the required Homebuyer Credit installment payment amount as an additional
tax on their tax return. The IRS developed a program to compute the amount it expects the
taxpayer to report on either line 59b of Form 1040 or on Form 5405. When tax returns are filed,
the IRS matches the amount reported on the tax return to the amount it expected to receive. If a
discrepancy exists, the tax return is sent to the IRS’s Error Resolution System function for
review. However, the IRS’s Homebuyer Credit repayment computation program was not always
correctly computing the amount that the taxpayer was required to repay.
We notified the IRS of this issue on February 21, 2012. According to IRS management, the
following conditions were associated with the erroneous refunding of Homebuyer Credit
installment payments.

28
     See Appendix V, report Ref. No. 2011-40-128, p. 11.
                                                                                                        Page 17
                The Majority of Individual Tax Returns Were Processed Timely,
                     but Not All Tax Credits Were Processed Correctly
                                 During the 2012 Filing Season



      Information regarding the amount of the Homebuyer Credit installment payment owed
       was not always correctly populating for MeF system tax returns. IRS management stated
       that they planned to extract data to identify taxpayers whose repayments were
       erroneously refunded and planned to contact these taxpayers to notify them that a
       repayment should be made to the IRS.
      Information included on the Homebuyer Credit Entity Section of taxpayers’ tax accounts
       incorrectly showed some taxpayers as not having a repayment requirement. When a
       taxpayer sent in a repayment amount and IRS records showed no repayment obligation,
       the amount repaid was refunded to the taxpayer. The IRS changed procedures alerting
       tax examiners to fully research tax accounts for which a repayment is made but IRS
       records show no repayment is due.
      Tax examiners processed Homebuyer Credit installment payments in error if individuals
       repaid more than required. In those cases, the excess amount was erroneously refunded.
       The IRS updated guidance for how to handle installment payments in excess of the
       amount owed.

Processing Homebuyer Credit dispositions
As of May 2, 2012, the IRS had inaccurately processed 66 percent (3,819 tax accounts) of the
5,756 taxpayer accounts it had processed as of December 31, 2011, where the taxpayer filed a
joint tax return with his or her spouse when the Homebuyer Credit was claimed but the
ownership of the property was later transferred as part of a divorce settlement. The IRS
incorrectly:
      Overstated the net Homebuyer Credit repayment obligation for 136 tax accounts by more
       than $650,000. As a result, the IRS incorrectly assessed more than $650,000 in
       additional tax to these 136 tax accounts.
      Understated the net Homebuyer Credit repayment obligation for 3,683 tax accounts by
       more than $13.1 million. As a result, the amount the taxpayers were required to repay
       was erroneously reduced by more than $13.1 million in Homebuyer Credit repayments.
When ownership of a home used to claim the Homebuyer Credit is transferred in a divorce, the
credit repayment obligation less any repayments that have been made is transferred to the spouse
that receives full ownership of the home. This transfer is reported on Part III, Line 13, Box E of
Form 5405. For example:
   Taxpayers A and B file a joint tax return and claim a $7,500 Homebuyer Credit. Taxpayer
   A’s tax account will show a credit repayment obligation of $3,750 and Taxpayer B’s tax
   account will show a credit repayment obligation of $3,750. The couple makes a
   $500 Homebuyer credit repayment. The IRS credits one-half of the repayment to each
   taxpayer. As a result, Taxpayer A’s tax account now shows a net repayment obligation of

                                                                                          Page 18
                   The Majority of Individual Tax Returns Were Processed Timely,
                        but Not All Tax Credits Were Processed Correctly
                                    During the 2012 Filing Season



     $3,500 and Taxpayer B’s tax account now shows a net repayment obligation of $3,500.
     The couple gets divorced and Taxpayer A transfers ownership of the home to Taxpayer B.
     When ownership of the home is transferred, the net repayment obligation for Taxpayer A is
     transferred to Taxpayer B. As a result, Taxpayer A’s tax account will now show a
     $0 repayment obligation and Taxpayer B’s tax account will show a $7,000 net repayment
     obligation.
We notified the IRS of this issue on April 30, 2012. IRS management indicated that
programming errors resulted in the incorrect computation of the Homebuyer Credit repayment
amount when one ex-spouse reports the disposal of the home for which the couple took the credit
and the other ex-spouse reports the transfer of the repayment obligation. IRS management stated
that they will correct the computer programming and take action to correct the tax accounts
processed incorrectly this year.
Processing of dispositions of property that was sold, converted to rental or business
property, or no longer being used as the taxpayer’s primary residence needs improvement
Taxpayers who sell a home for which the Homebuyer Credit was claimed, convert the home for
rental or business use, or no longer use the home as a main home compute the amount of the
Homebuyer Credit that has not yet been repaid in Part IV of Form 5405. Our analysis of a
statistically valid sample of 18929 Tax Year 2010 returns reporting these dispositions indicates
the IRS did not identify taxpayers’ errors in reporting the amount of Homebuyer Credit that was
to be repaid.
        49 (26 percent) tax returns reported a disposition of property on Form 5405 but made an
         installment payment instead of repaying $235,484 in outstanding Homebuyer Credits.
         We estimate that 9630 taxpayers incorrectly reported installment payments instead of
         repaying Homebuyer Credits totaling approximately $459,754.31 We notified the IRS of
         this issue on May 29, 2012. The IRS responded that the taxpayer’s Homebuyer Credit
         amount does not affect the processing of a payment of the credit. However, incorrect
         information in taxpayers’ Homebuyer Credit accounts led to erroneous processing of the
         payments. Subsequent to these payments being processed incorrectly, corrections were
         made to correct the Homebuyer Credit information in taxpayers’ accounts to resolve this
         problem for future payments.




29
   Our sample size is based on a population of 369, a confidence level of 95 percent, an expected error rate of
50 percent, and a precision of ±5 percent.
30
   Our projection is based on a 95 percent confidence level, a point estimate of 96, and a range of 80 to
112 taxpayers.
31
   Our projection is based on a 95 percent confidence level, a point estimate of $459,754, and a range of $365,747 to
$553,760.
                                                                                                            Page 19
                   The Majority of Individual Tax Returns Were Processed Timely,
                        but Not All Tax Credits Were Processed Correctly
                                    During the 2012 Filing Season



        89 (47 percent) tax returns where taxpayers understated their Homebuyer Credit claims
         by $511,933. We estimate that 17432 taxpayers understated the amount of Homebuyer
         Credit claimed by almost $1 million33 when reporting the disposition of the property. We
         notified the IRS of this issue on May 29, 2012. The IRS responded that the inaccuracy of
         the information in the taxpayers’ Homebuyer Credit account and inconsistent retrieval of
         the correct information needed to process the taxpayers’ payments by tax examiners led
         to incorrect processing of payments. These payments in our sample appeared to be
         processed in the first months of the filing season when the procedures for retrieving the
         correct information were new and tax examiners inconsistently followed the procedures.
         As the tax examiners became more familiar with the procedures and followed them more
         consistently, the number of incorrectly processed payments tapered off.
The IRS stated it plans to take actions to make assessments for the 138 accounts identified in our
samples. Analysis of Homebuyer Credit dispositions reported on Tax Year 2011 returns
processed as of May 2, 2012, indicates that the IRS has improved its processes for identifying
taxpayer reporting errors on dispositions.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure that the required Homebuyer Credit repayment field in
taxpayers’ tax accounts is accurately populated with the amount that must be repaid by each
taxpayer.
         Management’s Response: The IRS agreed with this recommendation. On
         February 28, 2012, programming changes were made to ensure the required Homebuyer
         Credit repayment field in taxpayers’ tax accounts is accurately populated. There have
         been no further reports of problems since the program correction was implemented.
Recommendation 2: Ensure that tax examiners processing Homebuyer Credit repayments
and installment payments process the payments accurately and make correct adjustments to the
taxpayers’ accounts.
         Management’s Response: The IRS agreed with this recommendation. On
         May 4, 2012, Servicewide Electronic Research Program Alert #12A0329 was issued to
         advise Error Resolution System function tax examiners of the correct procedures as stated
         in Internal Revenue Manual 3.12.3, Error Resolution – Individual Income Tax Returns.
         Adjustment notices for the First-Time Homebuyer Credit payment have been monitored

32
   Our projection is based on a 95 percent confidence level, a point estimate of 174, and a range of 155 to
192 taxpayers.
33
   Our projection is based on a 95 percent confidence level, a point estimate of $999,489, and a range of $880,865 to
$1,118,113.
                                                                                                            Page 20
                      The Majority of Individual Tax Returns Were Processed Timely,
                           but Not All Tax Credits Were Processed Correctly
                                       During the 2012 Filing Season



           closely. Monitoring will continue for the remainder of the year. Additionally,
           information on processing the First-Time Homebuyer Credit repayment is being included
           in the Error Resolution System function training at each submission processing site prior
           to the 2013 Filing Season.
Recommendation 3: Initiate a program to recover the $2.6 million in Homebuyer Credit
installment payments erroneously refunded to 6,288 taxpayers.
           Management’s Response: The IRS agreed with this recommendation. Corrective
           programming and procedures have been implemented. An extract of impacted taxpayers
           is being compiled to identify those accounts to be subjected to recovery actions.
Recommendation 4: Initiate a program to recover more than $14.6 million in Homebuyer
Credit repayments that were not properly assessed to taxpayers’ accounts.
           Management’s Response: The IRS agreed with this recommendation. Corrective
           programming and procedures have been implemented. An extract of impacted taxpayers
           is being compiled to identify those accounts to be subjected to recovery actions.
Recommendation 5: Initiate a program to correct the 1,217 taxpayers’ accounts that were
incorrectly assessed more than $940,000.
           Management’s Response: The IRS agreed with this recommendation. Corrective
           programming and procedures have been implemented. An extract of impacted taxpayers
           is being compiled to identify those accounts to be subjected to corrective actions.

Taxpayers Received Nonbusiness Energy Property Credits in Excess
of the Maximum Amount Allowed
In our 2011 Filing Season report,34 we reported that the IRS had not developed processes to
ensure taxpayers did not claim more than the $1,500 maximum amount allowed for the
Nonbusiness Energy Property Credit for Tax Years 2009 and 2010. For Tax Year 2011, the
maximum amount allowed for the credit over multiple years has been reduced to $500.35 Again
during the 2012 Filing Season, the IRS did not develop processes to ensure that taxpayers did not
claim more than the maximum allowed $500 for the credit for Tax Years 2009, 2010, and 2011.
We notified the IRS of our concerns on May 3, 2012. IRS management responded that they
agreed with our finding that some taxpayers were erroneously allowed the Nonbusiness Energy
Property Credit in excess of the $500 maximum limit on their Tax Year 2011 return. The IRS
performed additional analyses and determined that 125,684 taxpayers claimed more than the
maximum $500 limit on the Nonbusiness Energy Property Credit. The total amount erroneously
claimed was $29.7 million.
34
     See Appendix V, report Ref. No. 2011-40-128, p. 19.
35
     If a taxpayer and his or her spouse owned and lived apart in separate main homes, they may each qualify for $500.
                                                                                                            Page 21
                     The Majority of Individual Tax Returns Were Processed Timely,
                          but Not All Tax Credits Were Processed Correctly
                                      During the 2012 Filing Season



The IRS reported that it plans to address this category of returns not previously caught by
its suite of compliance detection tools through the Automated Questionable Credit (AQC) work
stream. Plans are to begin this work during Processing Year 2012 when resources become
available.

Recommendation
Recommendation 6: The Commissioner, Wage and Investment Division, should initiate a
program to recover the $29.7 million in Nonbusiness Energy Property Credits erroneously
allowed to 125,684 taxpayers who claimed more than the maximum $500 limit.
           Management’s Response: The IRS agreed with this recommendation. It will initiate
           actions to recover Nonbusiness Energy Property Credits allowed to taxpayers who
           claimed more than the maximum lifetime amount.

Individuals Are Claiming Students for the American Opportunity Tax
Credit Who, Based on Age, Are Unlikely to Be Pursuing an
Undergraduate Degree or Vocational Certification.
The American Recovery and Reinvestment Act of 2009 (the Recovery Act)36 provided funding to
address college affordability and improve access to higher education. One tax provision
amended the existing Hope Credit to allow a refundable tax credit, the American Opportunity
Tax Credit (AOTC), for higher education expenses up to $4,000 for Tax Years 2009 and 2010.
The maximum AOTC is $2,500 per student and the first 40 percent of the credit (up to $1,000) is
fully refundable. Taxpayers can receive the credit only for students who attend at least half-time
for at least one academic period and are pursuing an undergraduate degree or vocational
certification. In our prior review of the AOTC,37 we reported that as of May 28, 2010, 2.1
million taxpayers received $3.2 billion in education credits that appeared to be erroneous.
As a follow up to this prior review, we notified the IRS on January 5, 2012, that we had
identified approximately 35,000 individuals who were younger than the typical age of
individuals to be enrolled in a four-year college degree program or vocational school certificate
program who were claimed for the AOTC. It appeared that the individuals were used to
erroneously claim the AOTC on Tax Year 2009 returns. Of the 35,000 individuals, 13,870 were
age 10 and younger. We provided the information for the IRS’s consideration to develop
processes and procedures to identify similar claims to ensure erroneous education credits were
not paid.



36
     Pub. L. 111-5, 123 Stat. 115 (2009).
37
     See Appendix V, report Ref. No. 2011-41-083.
                                                                                          Page 22
                The Majority of Individual Tax Returns Were Processed Timely,
                     but Not All Tax Credits Were Processed Correctly
                                 During the 2012 Filing Season



Additional review identified 109,618 taxpayers as of May 2, 2012, who received refundable
                                      A.5.6




AOTC for Tax Year 2011 totaling more than $159 million for students who were of an age that
are unlikely to be enrolled in a four-year college degree program. We identified:
      39,901 taxpayers who received refundable AOTC totaling $69.7 million for students aged
       10 and younger.
      57,941 taxpayers who received refundable AOTC totaling $76.7 million for students aged
       11 through 16.
      11,776 taxpayers who received refundable AOTC totaling $12.6 million for students aged
       80 and older.
Because it is improbable the students in these age groups are enrolled in either a four-year
college degree program or a vocational school certificate program, these claims are potentially
erroneous.
We again notified the IRS of this issue on April 30, 2012. The IRS responded that it had
reviewed our analysis and agreed with the conclusion that the AOTC had been claimed by some
taxpayers for students who are outside the typical age range for college or vocational school
programs. A sample review of the accounts identified as claiming students in the 80 years or
older age range indicated that approximately one-half were attributable to errors in entering the
student’s Social Security Number on the tax return. For example, transposed digits or a single
incorrect digit caused the student to appear in the analysis to be of a questionable age. Other
accounts in this age range had indications of potential identity theft and are being reviewed in
more depth for filter enhancements and notification of potential victims.
************************************2(f)*************************************
************************************2(f)************************************
************************************2(f)*************************************
*************************************2(f)************************************
**************************************2(f)************************************
***************************************2(f)***********************************
*************************************2(f)*******************.
During the 2012 Filing Season, filters were implemented to identify potential Identity Theft
returns and route them to the Taxpayer Protection Unit for review and resolution. On
March 3, 2012, a filter was implemented to supplement the Identity Theft filters by detecting
questionable AOTC claims by elderly taxpayers, because the combination of age and education
credits are common indicators of potential identity theft. The IRS stated that it also began testing
on the AQC program. The AQC program is a cost-efficient program intended to address returns
where there is reasonable certainty an erroneous deduction or credit was claimed but the IRS
does not have math error authority to deny the deduction or credit. The AQC program is


                                                                                           Page 23
                The Majority of Individual Tax Returns Were Processed Timely,
                     but Not All Tax Credits Were Processed Correctly
                                 During the 2012 Filing Season



emerging from the pilot phase and will be used to address questionable AOTC claims filed in
Tax Year 2011 and earlier tax returns.
The IRS reported that as of June 22, 2012, it had frozen refunds exceeding $24 million on
2,517 accounts. It has corrected 2,672 accounts through correspondence or examination
adjustments. Another 3,711 returns are in the examination process and 4,895 are being reviewed
for potential identity theft, duplicate return conditions, or amended return consideration. Those
claims not previously addressed will be reviewed and, as warranted, subjected to the examination
processes.
In order to better identify questionable claims and prevent refunds from being issued on those
found to be erroneous during the 2013 Filing Season, the IRS stated that it has developed and is
testing an underage filter that will be implemented to supplement the existing Identity Theft and
Elderly filters. The IRS will also use the AQC program to initiate correspondence to taxpayers
and, if appropriate, issue the requisite Statutory Notices of Deficiency to disallow erroneous
credit claims before payment. For those cases that are not appropriate for resolution through the
AQC program, the IRS plans to continue to use existing examination resources to supplement its
efforts to address erroneous claims.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 7: Require taxpayers who claim the AOTC for students who are not an
appropriate age to be enrolled in a four-year college degree program or a vocational certificate
program to provide proof of enrollment.
       Management’s Response: The IRS agreed with this recommendation. It will
       explore the feasibility of using existing evaluative filters applied during return
       processing, or develop additional filters, that will consider the age of the student for
       purposes of identifying questionable claims for the AOTC. The law providing for the
       AOTC does not base eligibility for the credit on age; however, the age of the student can
       be used in evaluating the probable validity of the claim, and those that appear to be
       improbable may be referred for eligibility determination under deficiency procedures.
       With regard to determining proof of enrollment, Form 8863, Education Credits
       (American Opportunity and Lifetime Leaning Credits), has been revised for Tax
       Year 2012 to require detailed education institution information that can be matched
       against IRS and third-party data.
Recommendation 8: Initiate a recovery program to recover the more than $159 million for
the 109,618 individuals who received the AOTC for students who were of an age unlikely to be
enrolled in a four-year college degree program.


                                                                                           Page 24
                The Majority of Individual Tax Returns Were Processed Timely,
                     but Not All Tax Credits Were Processed Correctly
                                 During the 2012 Filing Season



       Management’s Response: The IRS agreed with this recommendation. It will
       complete its analysis of the individuals identified by the TIGTA and determine the extent
       to which recovery actions should be initiated. As noted in the report, the list contained
       individuals with transposed or erroneous digits in the student’s Social Security Numbers.
       These errors, made on the tax returns, caused those individuals to appear to be outside the
       typical student age range when the data were analyzed; however, upon further review of
       prior-year tax returns, the IRS was able to identify where the error occurred and ascertain
       that the subject student was, in fact, within the traditional student age range.
       Office of Audit Comment: While IRS management agreed to consider students’ ages
       when assessing the probable validity of an AOTC claim, they did not agree with our
       estimate of the revenue that can be protected by doing so. IRS management does not
       believe our estimate adequately considers ongoing efforts to identify questionable tax
       refunds. However, the IRS based its disagreement on ongoing activity of fewer than
       14,000 of the more than 109,000 tax returns we identified with questionable AOTC
       claims. In addition, the results of the IRS’s examination program, as well as the
       questionable AOTC claims identified in the IRS’s Identity Theft and Questionable
       Refund programs, demonstrate that these claims are most likely erroneous.
Recommendation 9: ***********************2(f)*******************************************
************************2(f)*********************.
       Management’s Response: ***********************2(f)*****************
       *************************************2(f)******************************
       **************************************2(f)**********************.




                                                                                          Page 25
                   The Majority of Individual Tax Returns Were Processed Timely,
                        but Not All Tax Credits Were Processed Correctly
                                    During the 2012 Filing Season



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective was to evaluate whether the IRS timely and accurately processed
individual paper and e-filed tax returns during the 2012 Filing Season.1 To accomplish this
objective, we:
I.      Identified volumes of paper and e-filed tax returns received through April 28, 2012, from
        the IRS Weekly Filing Season reports that provide a year-to-date comparison of
        scheduled return receipts to actual return receipts. The reports also provide a comparison
        to 2011 receipts for the same time period.
II.     Determined if the IRS has correctly implemented selected tax legislation that affects the
        processing of individual taxpayer returns during the 2012 Filing Season.
        A. Determined if the selected tax law provisions were correctly implemented into tax
           return processing systems at the submission processing sites by assessing the
           accuracy of tax returns processed with the new changes. We used computer analysis
           of 100 percent of the Tax Year 2011 individual income tax returns processed
           nationally on the Individual Return Transaction File between January 1 and
           May 2, 2012.2
        B. Electronically identified 359,905 tax returns claiming $774 million in EITCs on
           Form 1040, U.S. Individual Income Tax Return, Line 64a, that were prepared by paid
           tax return preparers and determined if the due diligence penalty for paid tax return
           preparers was assessed when Form 8867, Paid Preparer’s Earned Income Credit
           Checklist, was not attached.
        C. Electronically identified and evaluated 9,993 tax returns claiming the Homebuyer
           Credit on Form 5405, First-Time Homebuyer Credit and Repayment of the Credit, to
           determine if tax returns were processed correctly.
        D. Electronically identified and evaluated 745,671 tax returns reporting installment
           payments of $316,309,424 of Homebuyer Credit on Form 5405 for homes purchased
           in 2008 to determine whether the installment payment was properly posted to the
           Individual Master File account.


1
 See Appendix VI for a glossary of terms.
2
 To assess the reliability of computer-processed data, programmers in the TIGTA Office of Strategic Data Services
validated the data that were extracted and we verified the data with appropriate documentation. Judgmental samples
were selected and reviewed to ensure that the amounts presented were supported by external sources.
                                                                                                         Page 26
                     The Majority of Individual Tax Returns Were Processed Timely,
                          but Not All Tax Credits Were Processed Correctly
                                      During the 2012 Filing Season



           E. Electronically identified 54,350 taxpayers disposing of a residence in Tax Year 2010
              and 46,708 taxpayers disposing of a residence in Tax Year 2011 that was used to
              claim the Homebuyer Credit to determine if the taxpayers accurately reported the
              disposition and associated repayment amount and determined if the dispositions were
              processed correctly. We reviewed a statistical sample of 189 accounts to determine if
              the IRS identified taxpayers’ errors in reporting the amount of Homebuyer Credit that
              was to be repaid. Our sample size was based on a population of 369, a confidence
              level of 95 percent, an expected error rate of 50 percent, and a precision of ±5
              percent.
           F. Interviewed IRS management responsible for processing Nonbusiness Energy
              Property Credit claims to determine the controls and procedures the IRS had in place
              to identify individuals who claimed more than the $500 aggregate limit of
              Nonbusiness Energy Property Credits for Tax Years 2010, 2011, and 2012. We
              electronically identified and evaluated 1,475,919 e-filed Tax Year 2011 tax returns
              claiming the Nonbusiness Energy Property Credit on Form 5695, Residential Energy
              Credits, and on Form 1040, line 52, to determine whether the individual previously
              claimed the Nonbusiness Energy Property Credit in Tax Years 2009 and 2010. We
              performed computer analysis to determine if taxpayers were allowed to claim more
              than the $500 aggregate limit of Nonbusiness Energy Property Credits for the three
              years.
           G. Electronically identified 11,452,287 Tax Year 2011 tax returns claiming the AOTC
              on Form 8863, Education Credits (American Opportunity and Lifetime Learning
              Credits), Line 14 and on Form 1040, Line 66 and analyzed the ages of students’
              claimed for this credit.
           H. Determined whether examinations for 5,722 individual tax returns previously
              identified by the TIGTA3 with potentially erroneous Qualified Motor Vehicle
              deductions have been initiated and the amount of the assessments.
III.       Compiled statistical information that is of interest to external stakeholders.
           A. Obtained the results of Return Integrity and Correspondence Services Fraudulent
              Revenue Protected as of April 28, 2012.
           B. Obtained the number of prisoner tax returns identified for screening during the
              2012 Filing Season and compared statistics to the same period for the 2011 Filing
              Season.
           C. Determined whether taxpayers were using the savings bond option for direct purchase
              of savings bonds from their tax refunds and whether taxpayers significantly increased
              their use of the split tax refund option by electronically identifying and counting the
3
    See Appendix of V, report Ref. No. 2011-41-037.
                                                                                             Page 27
                     The Majority of Individual Tax Returns Were Processed Timely,
                          but Not All Tax Credits Were Processed Correctly
                                      During the 2012 Filing Season



               tax returns filed with Form 8888, Allocation of Refund (Including Savings Bond
               Purchases).
IV.        Identified interim results for the IRS Taxpayer Assistance Center Program.
           A. Obtained from the IRS Field Assistance Office statistics on taxpayers served at the
              Taxpayer Assistance Centers.
           B. Reviewed the IRS Weekly Filing Season Report, which provides a year-to-date
              comparison of various Taxpayer Assistance Center activity levels for the 2009
              through 2012 Filing Seasons.
V.         Identified interim results for the IRS Toll-Free Telephone Assistance Program by
           reviewing Performance Templates and Executive Level Summary reports from the
           Enterprise Telephone Data Warehouse for results as of April 21, 2012.
VI.        Identified interim results for the Volunteer Program by reviewing interim results from
           TIGTA visits to Volunteer Program sites. A total of 39 tax returns had been prepared as
           of April 21, 2012.4
VII.       Identified interim results for IRS self-assistance through IRS.gov from the IRS Weekly
           Filing Season Report of IRS.gov activity levels for the 2010 and 2011 Filing Seasons,
           through April 21, 2012.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the processes for planning, organizing,
directing, and controlling program operations for the 2012 Filing Season. We accomplished this
by monitoring the IRS weekly production meetings, reviewing IRS procedures, and interviewing
IRS management. We also evaluated the controls that are incorporated directly into computer
applications to help ensure the validity, completeness, accuracy, and confidentiality of
transactions and data during application processing of tax returns for the 2012 Filing Season.




4
    See Appendix V, report Ref. No. 2012-40-088.
                                                                                            Page 28
               The Majority of Individual Tax Returns Were Processed Timely,
                    but Not All Tax Credits Were Processed Correctly
                                During the 2012 Filing Season



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Deann Baiza, Acting Director
Paula Johnson, Acting Director
Wilma Figueroa, Audit Manager
Kathleen Hughes, Audit Manager
Sharon A. Buford, Senior Auditor
John L. Hawkins, Senior Auditor
Lance Welling, Auditor
Ed Carr, Audit Evaluator
Jack Laney, Audit Evaluator
Kim McMenamin, Audit Evaluator
Michele Cove, Information Technology Specialist
Brian Hattery, Information Technology Specialist
Steven Vandigriff, Information Technology Specialist
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                     Page 29
               The Majority of Individual Tax Returns Were Processed Timely,
                    but Not All Tax Credits Were Processed Correctly
                                During the 2012 Filing Season



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:RICS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                     Page 30
                     The Majority of Individual Tax Returns Were Processed Timely,
                          but Not All Tax Credits Were Processed Correctly
                                      During the 2012 Filing Season



                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
For most of the outcomes in this appendix, we conducted computer analysis of Tax Year 2011
individual income tax returns that were processed by the IRS submission processing sites1
between January 1 and May 2, 2012, and were posted to the Individual Master File. We have
also included one outcome that was a follow-up issue from a prior review. For this outcome, we
conducted computer analysis of Tax Year 2009 Individual Master File transactions that posted
between May 29, 2011, and May 2, 2012.

Type and Value of Outcome Measure:
     Revenue Protection – Actual; $3,587,953 in tax has been assessed for 1,563 taxpayers
      previously identified in another review2 with excessive Qualified Motor Vehicle deductions
      (see page 4).

Methodology Used to Measure the Reported Benefit:
We previously reported that the process to identify potentially erroneous Qualified Motor
Vehicle deductions was not effective and identified 7,756 taxpayers with potentially erroneous
Qualified Motor Vehicle deductions. We reported that we planned to monitor the IRS’s progress
in verifying the 7,756 potentially erroneous Qualified Motor Vehicle deductions we identified
and report the amount of increased tax liability for those Qualified Motor Vehicle deductions
disallowed during our 2011 Filing Season review. In our 2011 Filing Season review, we
reported that the IRS had assessed 2,034 taxpayers for erroneous Qualified Motor Vehicle
deductions and recovered more than $3 million. We performed additional analysis of tax records
during this review and determined that the IRS had assessed an additional 1,563 taxpayers for
erroneous Qualified Motor Vehicle deductions and assessed an additional $3,587,953.




1
    See Appendix VI for a glossary of terms.
2
    See Appendix V, report Ref. No. 2011-41-037.
                                                                                          Page 31
                The Majority of Individual Tax Returns Were Processed Timely,
                     but Not All Tax Credits Were Processed Correctly
                                 During the 2012 Filing Season



Type and Value of Outcome Measure:
   Revenue Protection – Potential; $2,571,492 from 6,288 taxpayers who received erroneous
    refunds of their Homebuyer Credit repayments (see page 16).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 6,288 taxpayers who correctly reported the required
repayment amount of their Homebuyer Credit on their tax returns processed during the period
January 1 through May 2, 2012, and had $2,571,492 in Homebuyer Credit repayments
erroneously refunded.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 1,081 taxpayers were erroneously assessed
    $290,360 more in Homebuyer Credit installment payments than they were required to pay
    (see page 16).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 1,081 taxpayers who were erroneously assessed $290,360
more in additional Homebuyer Credit installment payments than they were required to repay on
tax returns processed during the period January 1 through May 2, 2012, because the repayment
amount was incorrectly assessed as an additional amount.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $557,600 from 109 taxpayers who reported property
    dispositions that were under-assessed Homebuyer Credit repayment amounts (see page 16).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 109 taxpayers who reported dispositions of property and
were erroneously not assessed $557,600 more in Homebuyer Credit amounts from tax returns
processed during the period January 1 through December 31, 2011, because the disposition was
incorrectly processed.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 60 taxpayer accounts that were not credited
    $137,259 for Homebuyer Credit installment payments amounts that were paid (see page 16).




                                                                                       Page 32
                The Majority of Individual Tax Returns Were Processed Timely,
                     but Not All Tax Credits Were Processed Correctly
                                 During the 2012 Filing Season



Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 60 taxpayers who correctly reported the required
repayment amount of their Homebuyer Credit on their tax returns processed during the period
January 1 through December 31, 2011. These taxpayers’ accounts were not credited $137,259
for the amount of Homebuyer Credit installment payment that was paid.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 76 taxpayers were erroneously assessed
    $512,905 more in Homebuyer Credit repayments than they were required to repay (see
    page 16).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 76 taxpayers who reported a property disposition of
their Homebuyer Credit on their tax returns processed during the period January 1 through
December 31, 2011. These taxpayers were erroneously assessed $512,905 in additional amounts
of the Homebuyer Credit because the disposition was incorrectly processed.

Type and Value of Outcome Measure:
   Revenue Protection – Potential; $12,611,937 from 3,574 taxpayers whose accounts were
    credited for more than the amount of Homebuyer Credit repayment made (see page 16).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 3,574 taxpayers who reported a property disposition of
their Homebuyer Credit on their tax returns processed during the period January 1 through
December 31, 2011. These taxpayers’ accounts were credited $12,611,937 more than the
amount of Homebuyer Credit repayment made because the disposition was incorrectly
processed.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; estimated $459,754 from 96 taxpayers whose accounts were
    not assessed for Homebuyer Credit when a disposition of the property was reported (see
    page 16).

Methodology Used to Measure the Reported Benefit:
Our review of a statistically valid sample of tax returns reporting both dispositions of the
property and an installment payment identified 49 (26 percent) tax returns reporting an
installment payment instead of repaying $235,484 that represents the full amount of Homebuyer
Credit outstanding for the period January 1 through December 31, 2010. These taxpayers have
                                                                                       Page 33
                   The Majority of Individual Tax Returns Were Processed Timely,
                        but Not All Tax Credits Were Processed Correctly
                                    During the 2012 Filing Season



not been assessed the amount of Homebuyer Credit that was not repaid as of May 21, 2012. We
estimate that 963 taxpayers were not properly assessed approximately $459,7544 for the balance
of outstanding Homebuyer Credits.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $999,489 from 174 taxpayers whose accounts were not
    assessed for the Homebuyer Credit when a disposition of the property was reported (see
    page 16).

Methodology Used to Measure the Reported Benefit:
Our review of a statistically valid sample of tax returns reporting both dispositions of the
property and an installment payment identified 89 taxpayers who understated the amount of their
original Homebuyer Credit claim when a disposition of the property was reported for the period
January 1 through December 31, 2010. These taxpayers were not properly assessed $511,933 for
the full amount of Homebuyer Credit that should have been repaid when the taxpayer reported
the disposition of the property. We estimate that 1745 taxpayers understated the amount of
Homebuyer Credit claimed by $999,4896 when reporting the disposition of the property.

Type and Value of Outcome Measure:
   Revenue Protection – Potential; $29,711,334 from 125,684 taxpayers claiming erroneous
    Nonbusiness Energy Property Credits (see page 21).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 176,954 taxpayers who erroneously claimed $35,748,513
in Nonbusiness Energy Property Credits on tax returns processed during the period January 1
through May 2, 2012. These taxpayers claimed more than the maximum $500 allowed for the
Nonbusiness Energy Property Credit for Tax Years 2009, 2010, and 2011.7 The IRS performed
its own analysis and determined that 125,684 taxpayers claimed more than the maximum
$500 limit on the Nonbusiness Energy Property Credit, and that the total amount claimed was
$29,711,334, or 16.8 percent less than we identified.


3
  Our projection is based on a 95 percent confidence level, a point estimate of 96, and a range of 80 to
112 taxpayers.
4
  Our projection is based on a 95 percent confidence level, a point estimate of $459,754, and a range of $365,747 to
$553,760.
5
  Our projection is based on a 95 percent confidence level, a point estimate of 174, and a range of 155 to
192 taxpayers.
6
  Our projection is based on a 95 percent confidence level, a point estimate of $999,489, and a range of $880,865 to
$1,118,113.
7
  If a taxpayer and his or her spouse owned and lived apart in separate main homes, they may each qualify for $500.
                                                                                                           Page 34
                The Majority of Individual Tax Returns Were Processed Timely,
                     but Not All Tax Credits Were Processed Correctly
                                 During the 2012 Filing Season



Type and Value of Outcome Measure:
   Cost Savings, Funds Put to Better Use – Potential; $159,031,326 from 109,618 taxpayers
    claiming refundable AOTC for Tax Year 2011 for students who are of an age that are
    unlikely to be enrolled in a four-year college program (see page 22).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify 109,618 taxpayers who erroneously claimed
$159,031,326 in AOTCs on tax returns processed during the period January 1 through
May 2, 2012. These taxpayers received tax refunds for the AOTC for students who are age 16
and younger or age 80 and older.




                                                                                      Page 35
               The Majority of Individual Tax Returns Were Processed Timely,
                    but Not All Tax Credits Were Processed Correctly
                                During the 2012 Filing Season



                                                                              Appendix V

               Prior Treasury Inspector General for
                   Tax Administration Reports

Electric and Alternative Motor Vehicle Credits
TIGTA, Ref. No. 2011-41-011, Individuals Received Millions of Dollars in Erroneous Plug-in
Electric and Alternative Motor Vehicle Credits (Jan. 2011).
TIGTA, Ref. No. 2010-41-128, Verifying Eligibility for Certain New Tax Benefits Was a
Challenge for the 2010 Filing Season (Sept. 2010).
2011 Filing Season
TIGTA, Ref. No. 2011-40-128, The Passage of Late Legislation and Incorrect Computer
Programming Delayed Refunds for Some Taxpayers During the 2011 Filing Season (Sept. 2011).
Education Credits
TIGTA, Ref. No. 2011-41-083, Billions of Dollars in Education Credits Appear to Be Erroneous
(Sept. 2011).
Fraudulent Returns
TIGTA, Ref. No. 2010-40-129, Expanded Access to Wage and Withholding Information Can
Improve Identification of Fraudulent Tax Returns (Sept. 2010).
TIGTA, Ref. No. 2011-40-023, Reduction Targets and Strategies Have Not Been Established to
Reduce the Billions of Dollars in Improper Earned Income Tax Credit Payments Each Year
(Feb. 2011).
Customer Service
TIGTA, Ref. No. 2011-40-087, Increased Call Demand and Limited Resources Continue to
Adversely Affect the Toll-Free Telephone Level of Service (Aug. 2011).
TIGTA Ref. No. 2012-40-088, Ensuring the Quality Review Process Is Consistently Followed
Remains a Problem for the Volunteer Program (Jul. 2012).
Qualified Motor Vehicle Deductions
TIGTA, Ref. No. 2011-41-037, Millions of Dollars in Questionable Qualified Motor Vehicle
Deductions Are Being Allowed (Apr. 2011).



                                                                                        Page 36
              The Majority of Individual Tax Returns Were Processed Timely,
                   but Not All Tax Credits Were Processed Correctly
                               During the 2012 Filing Season



                                                                             Appendix VI


                            Glossary of Terms

American
                         A partially refundable Federal tax credit to help parents and
Opportunity Tax
                         college students offset the costs of college.
Credit
Automated                A treatment process to cover more credits and under-tolerance
Questionable Credit      refunds.
Electronic Fraud         An automated system used to maximize fraud detection at the
Detection System         time tax returns are filed to eliminate the issuance of
                         questionable tax refunds.
Filing Season            The period from January 1 through mid-April when most
                         individual income tax returns are filed.
Fiscal Year              A 12-consecutive-month period ending on the last day of any
                         month, except December. The Federal Government’s fiscal year
                         begins on October 1 and ends on September 30.
Free File Program        A free Federal tax preparation and e-filing program for eligible
                         taxpayers developed through a partnership between the IRS and
                         the Free File Alliance, LLC. The Alliance is a group of
                         private-sector tax software companies.
Individual Master File   The IRS database that maintains transactions or records of
                         individual tax accounts.
Individual Return        Contains all edited, transcribed, and error-corrected data from
Transaction File         the Form 1040, U.S. Individual Income Tax Return, series and
                         related forms for the current processing year and two prior years.
Master File              The IRS database that stores various types of taxpayer account
                         information. This database includes individual, business, and
                         employee plans and exempt organizations data.
Modernized E-File        The MeF system provides electronic filing and payment options
System                   for corporations, exempt organizations, individuals, partnerships,
                         and filers of excise tax returns.
Processing Year          The calendar year in which the tax return or document is
                         processed by the IRS.

                                                                                         Page 37
                 The Majority of Individual Tax Returns Were Processed Timely,
                      but Not All Tax Credits Were Processed Correctly
                                  During the 2012 Filing Season



    Submission            The data processing arm of the IRS. The sites process paper and
    Processing Site       electronic submissions, correct errors, and forward data to the
                          Computing Centers for analysis and posting to taxpayer
                          accounts.
    Tax Year              The 12-month period for which tax is calculated. For most
                          individual taxpayers, the tax year is synonymous with the
                          calendar year.
 




                                                                                      Page 38
    The Majority of Individual Tax Returns Were Processed Timely,
         but Not All Tax Credits Were Processed Correctly
                     During the 2012 Filing Season



                                                    Appendix VII

Management’s Response to the Draft Report




                                                              


                                                            Page 39
    The Majority of Individual Tax Returns Were Processed Timely,
         but Not All Tax Credits Were Processed Correctly
                     During the 2012 Filing Season




                                                                     
 
                                                            Page 40
The Majority of Individual Tax Returns Were Processed Timely,
     but Not All Tax Credits Were Processed Correctly
                 During the 2012 Filing Season




                                                              

                                                        Page 41
The Majority of Individual Tax Returns Were Processed Timely,
     but Not All Tax Credits Were Processed Correctly
                 During the 2012 Filing Season




                                                             


                                                        Page 42
The Majority of Individual Tax Returns Were Processed Timely,
     but Not All Tax Credits Were Processed Correctly
                 During the 2012 Filing Season




                                                                 

                                                        Page 43
The Majority of Individual Tax Returns Were Processed Timely,
     but Not All Tax Credits Were Processed Correctly
                 During the 2012 Filing Season




                                                                 

                                                        Page 44
 The Majority of Individual Tax Returns Were Processed Timely,
       but Not All Tax Credits Were Processed Correctly
                  During the 2012 Filing Season


RESPONSIBLE OFFICIAL
Director, Earned Income Tax Credit Office, Return Integrity & Correspondence
Services, Wage and Investment Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of our internal management
control system.

RECOMMENDATION 9
**************************************2(f)***********************
*************************************2(f)************************
*****2(f)*****.

CORRECTIVE ACTION
***************************************2(f)**********************
****************************************2(f)*********************
******************.

IMPLEMENTATION DATE
*********2(f)*******

RESPONSIBLE OFFICIAL
***********************************2(f)**************************
************************2(f)********

CORRECTIVE ACTION MONITORING PLAN
*********************************2(f)****************************
*****




                                                                        Page 45
